No. 20-554
IN THE

Supreme Court of the United States
____________________

CRAIG EUGENE SMITH,
Petitioner,
v.
JAMES MCKINNEY; KELLY HOLDER; LESLIE WAGERS;
NIKI WHITACRE; JONATHAN JANSSEN,
Respondents.
____________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit
____________________
REPLY BRIEF FOR PETITIONER
____________________
ANNA MOHAN
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, D.C. 20006
(202) 383-5300

ANTON METLITSKY
(Counsel of Record)
O’MELVENY & MYERS LLP
Times Square Tower
7 Times Square
New York, N.Y. 10036
(212) 326-2000

i
TABLE OF CONTENTS
Page
REPLY BRIEF FOR PETITIONER ......................... 1
A. Petitioner’s Conditions Of Confinement
Were Atypical And Significant Under
This Court’s Precedent And Under The
First And Tenth Circuit Tests. ...................... 2
B. The Factual Record In This Case Is
Adequate To Resolve The Question
Presented. ....................................................... 8
CONCLUSION ........................................................ 10

ii
TABLE OF AUTHORITIES
Page(s)
CASES
Estate of DiMarco v. Wyoming Dep’t of
Corrs.,
473 F.3d 1334 (10th Cir. 2007)........................ 4, 5
Rezaq v. Nalley,
677 F.3d 1001 (10th Cir. 2012)........................ 7, 8
Rogers v. Slaughter,
469 F.2d 1084 (5th Cir. 1972).............................. 7
Sandin v. Conner,
515 U.S. 472 (1995) .......................................1, 3, 9
Skinner v. Cunningham,
430 F.3d 483 (1st Cir. 2005) ............................ 4, 5
United States v. Crowell,
374 F.3d 790 (9th Cir. 2004)................................ 6
Wilkinson v. Austin,
545 U.S. 209 (2005) ...................................1, 3, 5, 9
RULES
Sup. Ct. R. 10 .......................................................... 10

1
REPLY BRIEF FOR PETITIONER
As the petition explained, Pet. 12-21, this case implicates an important question about how courts determine whether a prisoner has been deprived of a
fundamental liberty interest. Respondents concede,
moreover, that courts of appeals have “varied” in how
they answer that question—i.e., how they determine
that “a condition ‘imposes atypical and significant
hardship’ on a prisoner ‘in relation to the ordinary incidents of prison life.’” Opp. 2 (quoting Sandin v. Conner, 515 U.S. 472, 484 (1995)); see also Opp. 13. And
respondents even admit that “perhaps this Court
should resolve the ‘divergence’ and answer this difficult question of ‘the appropriate baseline’ against
which to compare a particular condition.” Opp. 2-3
(quoting Wilkinson v. Austin, 545 U.S. 209, 223
(2005)).
It is thus agreed that this case implicates a fundamentally important question over which the courts of
appeals are intractably divided. Respondents nevertheless offer two reasons for this Court to deny review. Neither is persuasive.
First, respondents contend that petitioner’s conditions of confinement were not atypical and significant
under any court of appeals’ test. But as the petition
explained, Pet. 16-17, 19-20, petitioner suffered an
atypical and significant hardship under the holistic
approach adopted by the First and Tenth Circuits.
That approach—consistent with this Court’s precedent in Sandin and Wilkinson—considers the penological justification for and duration of the prisoner’s
conditions of confinement in assessing whether the
conditions are “atypical and significant.” Where, as

2
here, the conditions are imposed for an indefinite
term without any legitimate penological justification,
they clearly satisfy that test. The Eighth Circuit’s refusal to even consider the indefinite nature of petitioner’s conditions of confinement or the fact that they
were imposed on petitioner without any disciplinary
justification squarely implicates the circuit conflict,
and warrants this Court’s review.
Second, respondents argue that petitioner failed to
develop the factual record necessary to analyze this
important legal question. But this case contains the
key facts necessary to resolve the question presented.
It is undisputed that petitioner’s transfer to a maximum-security facility—and the severe negative consequences that have flowed from that transfer—are
for an indeterminate duration. And it is clear that the
only justification for petitioner’s discipline—the disciplinary report alleging that he violated prison rules—
was expunged from his record. It is true that this case
does not include a particularly complex factual record,
but that makes this case a more appropriate vehicle
for certiorari, because it will allow the Court to
cleanly answer the purely legal question presented
and thus resolve the circuit conflict.
The petition should be granted.
A. Petitioner’s Conditions Of Confinement
Were Atypical And Significant Under This
Court’s Precedent And Under The First
And Tenth Circuit Tests.
Respondents acknowledge that the courts of appeals are intractably divided over how to determine

3
whether a prisoner suffered an atypical and significant hardship and thus was deprived of a fundamental liberty interest. Opp. 2, 13. And they concede that
this question is an important and difficult one that
this Court should resolve. Opp. 2-3. But respondents
protest that this case is not the appropriate vehicle to
resolve the question because petitioner’s conditions of
confinement were not atypical or significant under
any relevant test. That is wrong.
1. The petition explained why petitioner’s indefinite detention without disciplinary justification was
atypical and significant under both this Court’s precedent and that of the First and Tenth Circuits. Pet.
16-17, 19-20.
This Court has consistently recognized that the
“atypical and significant hardship” inquiry should not
be limited, as the Eighth Circuit has limited it here,
to a strict comparison between the prisoner’s conditions and those of a particular prison population. Instead, the Court has employed a more flexible analysis weighing factors such as the duration of the confinement and the justification or reasons for the confinement in determining whether a prisoner suffered
an atypical or significant hardship. See, e.g., Wilkinson, 545 U.S. at 223-24 (contrasting “short duration of segregation” in Sandin with indefinite duration of the confinement in Wilkinson); see also Sandin,
515 U.S. at 484-85 (“discipline by prison officials” can
be imposed in response to a wide range of conduct
without implicating liberty interests because it “effectuates prison management and prisoner rehabilitation goals”).

4
Based on this precedent, the First and Tenth Circuits have correctly held that the “atypical and significant hardship” inquiry requires the examination of a
“few key factors,” including: “whether (1) the segregation relates to and furthers a legitimate penological
interest, such as safety or rehabilitation; (2) the conditions of the placement are extreme; (3) the placement increases the duration of confinement, as it did
in Wilkinson; and (4) the placement is indeterminate
… .” Estate of DiMarco v. Wyoming Dep’t of Corrs.,
473 F.3d 1334, 1342 (10th Cir. 2007); see also Skinner
v. Cunningham, 430 F.3d 483, 487 (1st Cir. 2005),
(considering (1) whether the reasons for the prisoner’s
confinement were “rational;” (2) whether the “duration” was “excessive;” and (3) whether the “central
condition … was essential to its purpose”).
Under these circuits’ test, it is clear that petitioner
suffered an atypical and significant hardship. Petitioner was assigned to a year’s-worth of disciplinary
detention before he was transferred to a maximumsecurity facility where he lost his employment, wages,
security points, security classification, and inmate
tier status. Pet. 7-8, 15-17. That transfer, and all of
its attendant consequences, came with no expiration
date and no indication that the Department of Corrections intends ever to return petitioner to a medium
security facility. Petitioner’s conditions of confinement are at least “indeterminate”—and likely indefinite—in duration. Estate of DiMarco, 473 F.3d at
1342.
There also was no penological justification to support imposing these severe and restrictive conditions.
The disciplinary report that was the basis for these

5
measures was expunged after a state court found that
there was not even “some evidence” to support its allegations. Pet. App. 35a. Without the report, there
was no “rational” justification for or “legitimate penological interest” in punishing petitioner at all, let
alone imposing the restrictive and indefinite conditions described above. See Estate of DiMarco, 473
F.3d at 1342; Skinner, 430 F.3d at 487.
2. Respondents spill a great deal of ink explaining
why petitioner’s confinement is not atypical and significant under tests applied by other courts of appeals,
Opp. 17-19, 20-21, but that is the whole point—those
courts of appeals are wrong, and petitioner would prevail under the proper test. And when it comes to answering that question—i.e., whether petitioner would
prevail under the flexible holistic analysis that considers as key factors the duration of a condition of confinement and its penological justification—respondents’ arguments are superficial.
Respondents concede that “there [is] no definite
end to [petitioner’s] placement” in the maximum-security Iowa State Penitentiary (ISP). Opp. 20. They
attempt to gloss over that fact by pointing out that
petitioner had previously inhabited ISP and that ISP
is a maximum-security prison, not a Supermax. Opp.
17-18; see also Opp. 8. But those arguments cannot
be reconciled with this Court’s decision in Wilkinson
v. Austin, which recognizes that while any particular
condition of confinement may not, in isolation, implicate a liberty interest, when that condition is indefinitely imposed, it can. See 545 U.S. at 224 (noting
that while “conditions standing alone might not be
sufficient to create a liberty interest,” duration of the

6
conditions and their effect in disqualifying the prisoner for parole consideration “impose[d] an atypical
and significant hardship within the correctional context”).1
Respondents also acknowledge that the report
that formed the basis for petitioner’s discipline was
“removed … from his record” under the state court’s
order granting petitioner’s application for post-conviction relief. Opp. 22. They maintain, however, that
expunging the report “does not erase the fact that the
Department received complaints” against petitioner
and that the ALJ determined, after an investigation
of those complaints, that petitioner committed the violations alleged. Id. But that is precisely what expunging a record does. See United States v. Crowell,
374 F.3d 790, 792 (9th Cir. 2004) (“[A] defendant who
seeks expungement requests ‘the judicial editing of
history.’ … [I]n general when a defendant moves to
expunge records, she asks that the court destroy or
seal the records of the fact of the defendant’s conviction and not the conviction itself.” (quoting Rogers v.
Slaughter, 469 F.2d 1084, 1085 (5th Cir. 1972)). And
no matter what the ALJ determined, a state court concluded on post-conviction review that there was not
even “some evidence” to support the allegations contained in the report. Pet. App. 35a.
1 Respondents also note that petitioner’s administrative segregation notice reports petitioner as stating that he would rather
go back to ISP than “sit here in your lockdown.” C.A. App. 139;
Opp. 17-18. It is hardly surprising that when faced with a choice
between disciplinary segregation and a transfer to a different institution, a prisoner would prefer to avoid segregation. That
does not mean his conditions were not atypical or significant.

7
Respondents note that the disciplinary report
listed other justifications, apart from petitioner’s alleged violations of prison rules, for petitioner’s discipline. Opp. 19-20 (citing C.A. App. 142 and noting
that ALJ recommended transfer because of petitioner’s threats of harm to others). But again, the Department of Corrections removed the entire disciplinary hearing and ruling from petitioner’s record under the state court’s order. C.A. App. 166. It does not
matter if that ruling listed other reasons for petitioner’s discipline because that ruling must be treated
as if it never existed. And without the disciplinary
report, respondents can offer no plausible penological
justification for petitioner’s conditions of confinement.
Finally, respondents cite Rezaq v. Nalley, 677 F.3d
1001 (10th Cir. 2012), which they say is an example
of a case in which the Tenth Circuit determined under
its holistic approach that conditions like petitioner’s
do not impose an atypical or significant hardship.
Opp. 19. But that case supports petitioner’s view.
The plaintiffs there argued that the disciplinary justification for a particular condition is “not relevant” at
all “to the liberty interest inquiry.” Rezaq, 677 F.3d
at 1013 (quotation omitted). The court rejected that
argument, holding that “[l]egitimate penological interests are a relevant consideration under settled
Tenth Circuit precedent.” Id. It then concluded that
penological justifications offered by the Bureau of
Prisons supported the confinement at issue in that
case. Id. at 1013-14. Here, in contrast, there is “not
even some evidence” to support or penological justifi-

8
cation for the imposition of the discipline on petitioner. Pet. App. 35a.2 Petitioner would thus prevail
in the First and Tenth Circuits because those courts
employ a different legal standard from the one applied by the court below and by several other circuits.
Pet. 12-17. That state of affairs is intolerable—the
scope of a prisoner’s liberty interest under the Due
Process Clause should not turn on the happenstance
of geography—and only this Court can resolve the
conflict. The petition should be granted.
B. The Factual Record In This Case Is Adequate To Resolve The Question Presented.
Respondents alternatively contend that this case
is a poor vehicle because petitioner has failed to develop the factual record necessary to resolve the question presented. Respondents are wrong. When the
correct analysis is applied, no additional facts are necessary to conclude that petitioner’s confinement was
atypical and significant. That analysis, as explained,
requires consideration of the conditions of the prisoner’s confinement, the duration of that confinement,
and the state’s justification for imposing the confinement. See Pet. 15-21; supra at 3-4. Here, it is undisputed that petitioner was placed in disciplinary segregation—i.e., the “Hole,” C.A. App. 15—and then
transferred to a maximum-security prison where he
2 The conditions of confinement in Rezaq also were “not indefinite” because the prisoners had available “twice-yearly reviews” to determine whether they should be eligible for a transfer. Rezaq, 677 F.3d at 1016. Respondents do not contend that
petitioner has similarly available review opportunities.

9
lost his inmate tier status, employment, wages, and
security status for an indefinite period of time. Pet.
App. 4a, 23a, 25a; C.A. App. 143-46, 182. It is likewise
clear that there was no disciplinary or penological justification for the imposition of those conditions—
again, there was not even “some evidence” to support
the disciplinary charges that prompted them. Pet.
App. 35a. Together, those facts are sufficient to establish that petitioner’s discipline imposed an “atypical and significant hardship.”
Respondents argue that this case lacks the minute
details about the prisoners’ confinement—including,
for example, the number of phone calls and visitors,
the restraints used while exercising, the hours per
day of confinement, the lighting and size of the cells,
and meal practices—featured in Sandin and Wilkinson. Opp. 13-14. But Sandin and Wilkinson did
not purport to hold that each of those details is necessary to support a conclusion that a prisoner has suffered an atypical or significant hardship. And unlike
this case, neither of those cases involved disciplinary
conditions that were imposed both indefinitely and
with no legitimate penological justification.
If anything, the more straightforward and undisputed factual record makes this case an ideal vehicle
for resolution of the legal question implicated. See
Sup. Ct. R. 10 (“A petition for writ of certiorari is
rarely granted when the asserted error consists of erroneous factual findings or the misapplication of a
properly stated rule of law.”). This petition presents
a clean vehicle for the Court to decide a purely legal
question that respondents admit is important, and

10
that has divided the courts of appeals. The Court
should grant certiorari, and reverse.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
ANTON METLITSKY
(Counsel of Record)
ametlitsky@omm.com
O’MELVENY & MYERS LLP
Times Square Tower
7 Times Square
New York, N.Y. 10036
(212) 326-2000
ANNA MOHAN
O’MELVENY & MYERS LLP
1625 Eye Street N.W.
Washington, D.C. 20006
(202) 383-5300

April 2021

